No. 19-401
IN THE SUPREME COURT OF THE UNITED STATES
LAMONT DEJUAN HIGGS, PETITIONER
V.

WARDEN WILSON

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via e-mail and first-class mail,
postage prepaid, this 18th day of December 2019.
[See Attached Service Listi
As required by Supreme Court Rule 33.1(h), I certify that the document contain 5,363 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
December 18, 2019

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
December 18, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefsUSDOJ.gov. Ms. Goodwin's phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-040 1
HIGGS, LAMONT DEJUAN
WARDEN WILSON

LOCHLAN F. SHELFER
GILBSON, DUNN & CRUTCHER LLP
1050 CONNECTICUT AVENUE, NW
WASHINGTON , DC 20036
202-955-8500
LSHELFER@GIBSONDUNN.COM

